TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    A Service-wide Strategy Is Needed to
                    Address Growing Noncompliance With
                 Individual Retirement Account Contribution
                        and Distribution Requirements



                                          March 29, 2010

                              Reference Number: 2010-40-043




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 March 29, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – A Service-wide Strategy Is Needed to Address
                               Growing Noncompliance With Individual Retirement Account
                               Contribution and Distribution Requirements (Audit #200940016)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) actions to identify and correct individual excess contributions to Individual Retirement
 Accounts (IRA) and nondisbursements of required minimum distributions from IRAs. This
 review was included in the Treasury Inspector General for Tax Administration Fiscal Year 2009
 Annual Audit Plan and addresses the major management challenge of Processing Returns and
 Implementing Tax Law Changes.

 Impact on the Taxpayer
 IRAs are a key tax-preferred way for individuals to save for retirement and are an increasingly
 important way for individuals to roll over savings from pension plans. The Investment Company
 Institute 1 estimated that assets held in IRAs were $3.6 trillion in 2008 and that IRAs represented
 more than 26 percent of total United States retirement assets. 2 Individual noncompliance with
 IRA excess contribution and minimum distribution requirements continues to grow, resulting in
 significant revenue loss to the Federal Government.



 1
   The Investment Company Institute is the national association of United States mutual funds and other investment
 companies. Its history as an organization dates from 1940. Members manage total assets of $11.33 trillion and
 serve nearly 90 million shareholders.
 2
   Retirement asset growth has normally correlated with stock and bond market returns and in 2008 nearly all assets
 experienced negative returns.
                                A Service-wide Strategy Is Needed to
                     Address Growing Noncompliance With Individual Retirement
                        Account Contribution and Distribution Requirements



Synopsis
There are two main types of IRAs, a traditional IRA and a Roth IRA. Both types allow
individuals to contribute up to $4,000 per year ($5,000 if age 50 or older) and provide
tax-preferred ways to save for retirement. 3 Any amount contributed to a traditional or Roth IRA
for the year that exceeds the contribution limit, or any amount contributed to a traditional IRA by
an individual who has reached age 70½, is an excess contribution. Generally, if the excess
contribution for the year is not withdrawn by the due date of the tax return (including
extensions), there is a 6 percent excise tax on the amount of excess contribution.
Individual noncompliance with IRA excess contribution and minimum distribution requirements
continues to grow since our previous review. 4 Our review of Tax Year (TY) 2006 and TY 2007
IRA Contribution Information (Form 5498) and Distributions From Pensions, Annuities,
Retirement or Profit-Sharing Plans, IRAs, Insurance Contracts, etc. (Form 1099-R) identified
potential revenue losses associated with:
    •   295,141 individuals improperly making excess contributions totaling $812,339,722 for
        TY 2006 and $756,792,044 for TY 2007. We estimate tax revenue losses of $94,150,444
        in excise tax and $17,574,276 in income tax for these 2 tax years.
    •   255,498 individuals not taking required minimum distributions totaling $348,480,200 for
        TYs 2006 and 2007. We estimate tax revenue loss of $174,249,074 in excise tax for
        these 2 tax years.
Our prior review concluded that the IRS’ processing procedures for IRAs do not ensure that
individuals are complying with IRA rules. In our current review, we again found that IRS
procedures are inadequate to identify individuals who make IRA contributions in excess of what
the law allows or individuals who are not taking
required minimum distributions. In response to                The IRS needs to develop a
concerns we raised in our prior audit report, the IRS      Service-wide strategy to address
initiated four studies. 5 To date, results are available   growing noncompliance with IRA
for only one of the IRS’ studies, and these results       excess   contribution and minimum
                                                               distribution requirements.
confirm what we had previously reported to the IRS in


3
  These were the contribution limits in effect for Tax Years 2006 and 2007, which are the periods we evaluated. The
maximum contribution limit increased $1,000 for Tax Year 2008 to $5,000, ($6,000 if age 50 or older).
4
  Individual Retirement Account Contributions and Distributions Are Not Adequately Monitored to Ensure Tax
Compliance (Reference Number 2008-40-087, dated March 28, 2008).
5
  The IRS completed and provided results for the study of excess IRA contributions for TY 2006. We have not
received results for the two studies on excess IRA contributions for TY 2007 and required minimum distributions
for TY 2007. Data from the IRS National Research Program study of TY 2007 individual returns will not be
available until late 2010. This study will include data on noncompliance with traditional and Roth IRA contribution
rules.
                                                                                                                 2
                               A Service-wide Strategy Is Needed to
                    Address Growing Noncompliance With Individual Retirement
                       Account Contribution and Distribution Requirements


March 2008—individuals are making excess contributions. Based on our analyses, we believe
the remaining three studies will confirm what we previously reported—individuals are making
excess contributions and individuals are not taking required minimum distributions.
Apart from the initiation of the four studies, the IRS has not taken sufficient action to address the
significant revenue losses associated with IRA noncompliance. The IRS should develop a
Service-wide strategy to address growing IRA noncompliance. Of particular concern is the lack
of functional ownership within the IRS for addressing IRA noncompliance. Based on our
analyses of IRA contributions and required minimum distributions, noncompliance will likely
continue to grow and continue to result in significant revenue loss. By 2030, the number of
people aged 65 and over is expected to double to about 20 percent of the population, or more
than 71 million people. The number of people aged 85 and older will be the fastest growing
segment of the United States population. 6 Incomes increasingly transition from wages to
investment and retirement benefits as individuals reach retirement age.

Recommendation
The Deputy Commissioner for Services and Enforcement should ensure a Service-wide strategy
is developed to address retirement provision noncompliance.

Response
IRS management agreed that a Service-wide strategy is warranted. Executives from the
Wage and Investment and Tax Exempt and Government Entities Divisions met and agreed to
share responsibility for development of this long-term strategy. The strategy will not only
address compliance, but will also include plans for outreach and guidance for individual tax
payers and employee plan organizations.
IRS management agreed with the outcome measures outlined in Appendix IV, but added that full
realization of the potential revenue cited may not be realistic. IRS management’s complete
response to the draft report is included as Appendix VIII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




6
 United States Census Bureau, Population Division, Population Projections Branch from The Wage and Investment
Division Strategy and Program Plan FY 2007–FY 2008.
                                                                                                            3
                                   A Service-wide Strategy Is Needed to
                        Address Growing Noncompliance With Individual Retirement
                           Account Contribution and Distribution Requirements




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Noncompliance With Excess Contribution and Minimum
          Distribution Requirements Continues to Grow, Resulting in
          Significant Revenue Loss .............................................................................Page 5
                    Recommendation 1:........................................................Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 14
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Outcome Measures...............................................................Page 19
          Appendix V – Methodology to Compute Estimated Revenue Loss
          Associated With Excess IRA Contributions .................................................Page 22
          Appendix VI – IRA Contribution Information (Form 5498)........................Page 28
          Appendix VII – Distributions From Pensions, Annuities,
          Retirement or Profit-Sharing Plans, IRAs, Insurance
          Contracts, etc. (Form 1099-R) ......................................................................Page 29
          Appendix VIII – Management’s Response to the Draft Report ...................Page 31
                   A Service-wide Strategy Is Needed to
        Address Growing Noncompliance With Individual Retirement
           Account Contribution and Distribution Requirements




                      Abbreviations

AUR             Automated Underreporter
IRA             Individual Retirement Account (also known as Individual
                Retirement Arrangement)
IRS             Internal Revenue Service
NRP             National Research Program
TIGTA           Treasury Inspector General for Tax Administration
TIN             Taxpayer Identification Number
TY              Tax Year
U.S.            United States
                                 A Service-wide Strategy Is Needed to
                      Address Growing Noncompliance With Individual Retirement
                         Account Contribution and Distribution Requirements




                                             Background

Individual Retirement Accounts (IRA) are a key tax-preferred way for individuals to save for
retirement and are an increasingly important way for individuals to roll over savings from
pension plans. In addition, funds put into IRAs can grow faster than a typical investment
account since they are tax deferred. The Investment Company Institute 1 estimated that assets
held in IRAs were $3.6 trillion in 2008 and that IRAs represented more than 26 percent of total
United States (U.S.) retirement assets. 2 Approximately 47.3 million households, or 4 in 10,
owned IRAs in mid-2008. Figure 1 provides a breakdown of these 47.3 million U.S. households.
      Figure 1: Millions of Households That Own Individual Retirement Accounts

                                                                Number of U.S.          Percentage of U.S.
         Type of IRA                  Year Created             Households With          Households With
                                                               Type of IRA, 2008        Type of IRA, 2008
                                1974 (Employee
    Traditional IRA             Retirement Income                  37.5 million                32.1%
                                Security Act)
    Simplified Employee         1978 (Revenue Act)
    Pension (SEP) IRA
    Salary Reduction
    Simplified Employee         1986 (Tax Reform Act)
    Pension (SARSEP) IRA                                           10.0 million                 8.6%

    Savings Incentive Match     1996 (Small Business
    Plan for Employees          Job Protection Act)
    (SIMPLE) IRA
                                1997 (Taxpayer Relief
    Roth IRA                                                       18.6 million                15.9%
                                Act)
    Any IRA 3                                                      47.3 million                40.5%
Source: Investment Company Institute, Research Fundamentals, The U.S. Retirement Market, 2008.


1
  The Investment Company Institute is the national association of United States mutual funds and other investment
companies. Its history as an organization dates from 1940. Members manage total assets of $11.33 trillion and
serve nearly 90 million shareholders.
2
  Retirement asset growth has normally correlated with stock and bond market returns, and in 2008 nearly all assets
experienced negative returns.
3
  Adding the number of households owning each type of IRA will not equal the total number of households owning
IRAs since households may own more than one type of IRA.
                                                                                                            Page 1
                                A Service-wide Strategy Is Needed to
                     Address Growing Noncompliance With Individual Retirement
                        Account Contribution and Distribution Requirements



Two Main Types of IRAs – Traditional and Roth
There are two main types of IRAs, a traditional IRA and a Roth IRA. Both types allow
individuals to contribute up to $4,000 per year ($5,000 if age 50 or older) and provide
tax-preferred ways of saving for retirement. 4 Any amount contributed to a traditional or Roth
IRA for the year that exceeds the contribution limit, or any amount contributed to a traditional
IRA by an individual who has reached age 70½, is an excess contribution. Generally, if the
excess contributions for the year are not withdrawn by the due date of the tax return (including
extensions), there is a 6 percent excise tax on the excess contributions. Specific characteristics
of traditional and Roth IRAs are shown below.
    •    Traditional IRA: The traditional IRA, within certain income limits and other eligibility
         factors, 5 allows individuals to deduct the amount of their IRA contribution from their
         taxable income, thus adding to their tax deferral benefits. When an individual reaches
         age 70½, the individual can no longer contribute to a traditional IRA and must begin
         taking required minimum distributions from a traditional IRA. 6 The required minimum
         distribution must be taken by April 1 following the calendar year in which the individual
         reaches age 70½ and by December 31 for all subsequent years. The amount that is
         required to be distributed depends on the traditional IRA balance at the end of the
         preceding year and the individual’s life expectancy. These distributions are generally
         taxed as ordinary income. Any portion of the required minimum distribution not taken
         by the individual by the end of the year may be subject to a 50 percent excise tax. 7
    •    Roth IRA: There is no age limit for making contributions to Roth IRAs 8
         (i.e., contributions can be made after reaching age 70½). Roth IRA contributions are not
         tax deductible, but qualified distributions 9 from Roth IRAs are tax free. In addition, there
         is no age limit as to when distributions must take place, so individuals can accumulate
         investment earnings tax free for as long as they choose. For example:

4
  These were the contribution limits in effect for Tax Years 2006 and 2007, which are the periods we evaluated. The
maximum contribution limit increased $1,000 for Tax Year 2008 to $5,000, ($6,000 if age 50 or older).
5
  Eligibility takes into account whether the individual has taxable compensation, age at the end of the year, and the
income limits and filing status if the individual or spouse had an employer-sponsored retirement account.
6
  Congress passed the Worker, Retiree, and Employer Recovery Act of 2008 (Pub. L. No. 110-458), which provides
for a 1-year waiver of the required minimum distribution rules for certain retirement plans and accounts. Under
Section 201, no minimum distribution is required for Calendar Year 2009 from individual retirement plans and
certain employer-provided qualified retirement plans. The next required minimum distribution would be for
Calendar Year 2010.
7
  Individuals may request the IRS excuse the penalty if failure to take the required minimum distribution was due to
reasonable error.
8
  Eligibility for making a Roth IRA contribution depends on the individual’s taxable compensation, modified
Adjusted Gross Income, filing status, and whether the individual made traditional IRA contributions. Age and
coverage by an employer retirement plan does not affect eligibility for making Roth IRA contributions.
9
  An example of a qualified distribution is a payment from a Roth IRA made at least 5 years after the contribution
was placed in the IRA account and the individual is at least 59½ years old.
                                                                                                             Page 2
                                A Service-wide Strategy Is Needed to
                     Address Growing Noncompliance With Individual Retirement
                        Account Contribution and Distribution Requirements



        An unmarried individual age 71 with a traditional IRA balance of $26,500 would be
        required to take a minimum distribution of $1,000. 10 If distributions are less than the
        minimum distribution for the year, the individual is subject to a 50 percent excise tax on
        the amount not distributed as required. In contrast, if this individual owned a Roth IRA,
        they would not be required to take a minimum distribution. However, beneficiaries of
        either traditional or Roth IRAs are required to take minimum distributions, and the rules
        depend on whether the beneficiary is a surviving spouse, other individual, or an entity,
        such as a trust or estate.
While these IRA provisions provide meaningful benefits to individuals, these same provisions
can pose a significant risk for tax revenue loss to the Federal Government if the information
reported to the Internal Revenue Service (IRS) by IRA account custodians 11 is not used to
identify noncompliance with IRA requirements. For example, if an individual contributed the
annual maximum to one Roth IRA and then improperly contributes the same amount to a second
Roth IRA, the potential amount of tax-free proceeds to beneficiaries could be $505,365 over
30 years due to the annual compounding of interest, as shown in Figure 2.
               Figure 2: Potential Impact to Federal Government Revenues

            Individual With One            $5,000/Yr       $5,000/Yr       $5,000/Yr       Tax-Free
                Unallowable                @ 7% for        @ 7% for        @ 7% for       Proceeds to
                 Roth IRA                  10 Years        20 Years        30 Years       Beneficiaries
          Principal Plus Interest           $73,918         $219,326       $505,365         $505,365

          (Less) Total                     -$50,000        -$100,000       -$150,000
          Contributions 12

          Total Unreported Interest         $23,918         $119,326       $355,365

        Source: Treasury Inspector General for Tax Administration (TIGTA) computations of compound interest.

In addition, if an individual had sufficient funds to establish more than one unallowable Roth
IRA, the risk of significant unreported income could be substantially more than the amounts
shown in Figure 2.




10
   The $1,000 is computed by dividing the IRA balance (i.e., fair market value) of $26,500 by 26.5, which is the
uniform lifetime distribution period for an unmarried individual age 71.
11
   An agent, bank, trust company, or other organization which holds and safeguards assets belonging to individuals
or companies.
12
   We assumed the $5,000 maximum annual IRA contribution limit remains the same over the contribution periods.
                                                                                                           Page 3
                                A Service-wide Strategy Is Needed to
                     Address Growing Noncompliance With Individual Retirement
                        Account Contribution and Distribution Requirements



Custodial Reporting Requirements
To protect against the risk shown in Figure 2, IRA custodians are required to report IRA
contributions to the IRS on IRA Contribution Information (Form 5498) 13 and provide copies to
IRA owners (individuals). A separate Form 5498 should be filed for each IRA an individual
holds.
Custodians are required to report distributions from IRA accounts on Distributions From
Pensions, Annuities, Retirement or Profit-Sharing Plans, IRAs, Insurance Contracts, etc.
(Form 1099-R). 14 Custodians must also provide the appropriate distribution codes. For example,
code 7 for normal distribution, code 4 for death, etc. In addition, IRA custodians are required to
submit Forms 5498 and 1099-R to the IRS Information Returns Branch.15 This branch collects
and processes the information returns so they can be used by other IRS functions or programs.
Once the information returns are processed, they are posted to the IRS Information Returns
Master File. 16 Data on this system may not be available for months because some information
returns for the tax year are not due until the middle of the following year.
A Prior TIGTA Audit Identified Individual Noncompliance With IRA Requirements
This audit is a followup to a prior TIGTA report. 17 In our prior review, we reported that
individuals were making contributions in excess of the maximum allowable limit and individuals
were not taking required minimum distributions. The focus was on the following issues for
traditional or Roth IRAs: (1) contributions in excess of the maximum allowable limit of $4,500
for Tax Year (TY) 2005 and (2) required minimum distributions from traditional IRAs. This
audit included a review of contributions made in excess of the maximum allowable limit of
$5,000 for TY 2006 and $5,000 for TY 2007 and required minimum distributions not taken by
individuals for TY 2006 and TY 2007.
This review was performed at the IRS Wage and Investment Division office in Atlanta, Georgia,
during the period May 2009 through December 2009. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.


13
   Appendix VI provides an example of a Form 5498.
14
   Appendix VII provides an example of a Form 1099-R.
15
   A branch in the IRS Wage and Investment Division, Customer Account Services function.
16
   The Information Returns Master File contains tax information reported from third parties for the current and
prior 5 tax years.
17
   Individual Retirement Account Contributions and Distributions Are Not Adequately Monitored to Ensure Tax
Compliance (Reference Number 2008-40-087, dated March 28, 2008).
                                                                                                            Page 4
                                A Service-wide Strategy Is Needed to
                     Address Growing Noncompliance With Individual Retirement
                        Account Contribution and Distribution Requirements




                                      Results of Review

Noncompliance With Excess Contribution and Minimum Distribution
Requirements Continues to Grow, Resulting in Significant Revenue
Loss
Individual noncompliance with IRA excess contribution and minimum distribution requirements
continues to grow since our previous review. Our review of TY 2006 and TY 2007 Forms 5498
and Forms 1099-R identified potential revenue losses associated with:
     •   295,141 individuals improperly making excess contributions totaling $812,339,722 for
         TY 2006 and $756,792,044 for TY 2007. We estimate tax revenue losses of $94,150,444
         in excise tax and $17,574,276 in income tax for these 2 tax years.
     •   255,498 individuals not taking required minimum distributions totaling $348,480,200 for
         TY 2006 and TY 2007. We estimate tax revenue loss of $174,249,074 for these 2 tax
         years.
Our prior review concluded that the IRS’ processing procedures for IRAs do not ensure that
individuals are complying with IRA rules. In response to concerns we raised in our prior audit
report, the IRS initiated four studies. 18 To date, results
are available for only one of the IRS’ studies and these
                                                             The IRS has initiated studies
results confirm what we had previously reported to the        to confirm what the TIGTA
IRS in March 2008—individuals are making excess              previously reported, but has
contributions. Based on our analyses, we believe the         not taken actions to address
remaining three studies will confirm what we previously       significant revenue losses
reported—individuals are making excess contributions              associated with IRA
                                                                    noncompliance.
and individuals are not taking required minimum
distributions.
Apart from the initiation of these studies, the IRS has not taken sufficient action to address the
significant revenue losses associated with IRA noncompliance.




18
  The IRS completed and provided results for the study of excess IRA contributions for TY 2006. We have not
received results for the two studies on excess IRA contributions for TY 2007 and required minimum distributions
for TY 2007. Data from the IRS National Research Program study of TY 2007 individual returns will not be
available until late 2010. This study will include data on noncompliance with traditional and Roth IRA contribution
rules.
                                                                                                           Page 5
                                A Service-wide Strategy Is Needed to
                     Address Growing Noncompliance With Individual Retirement
                        Account Contribution and Distribution Requirements



Individuals continue to make contributions in excess of maximum limits
In our prior review, we identified 107,129 individuals who appeared to have exceeded the
$4,500 maximum allowable IRA contribution limit for TY 2005 and did not report excise tax on
the excess contributions. 19 We estimated the potential revenue loss resulting from the excess
contributions of more than $6.6 million in unreported excise tax. We estimated that over 5 years,
the potential amount of lost excise tax revenue would be approximately $33 million. This
estimate was based on the probability that these individuals would continue to make the same
excess contributions over the next 5 years.
For this review, to identify the potential underreported excise tax resulting from excess
contributions, we performed an analysis similar to the concept of the IRS Automated
Underreporter (AUR) Program, which uses third-party reporting documents (Forms 5498 and
Forms 1099-R) to identify potentially noncompliant individuals. Appendix V details the specific
methodology we used which could be used by the IRS in developing an IRA compliance
initiative.
                                         Our review of TY 2006 and TY 2007 IRA
                                         contributions showed that noncompliance with the
        Excess contributions by          excess contribution limit has grown significantly. We
     295,141 individuals in TYs 2006
   and 2007 resulted in $235 million in  identified 295,141 individuals who exceeded the
   unreported excise tax over 5 years.   maximum annual limit of $5,000. 20 The excess
                                         contributions for these individuals totaled more than
                                         $1.5 billion. We estimate potential revenue loss of
more than $94.1 million in unreported excise tax resulting from the excess contributions for
TY 2006 and TY 2007. Figure 3 shows that over 5 years, the potential amount of lost excise tax
revenue totals more than $235 million. Our estimate is based on the individuals continuing to
make the same excess contributions over the next 5 years.




19
   To avoid erroneously identifying individuals age 50 and older as having exceeded their IRA contribution limit, the
maximum allowable amount of $4,500 for TY 2005 was used.
20
   To avoid erroneously identifying individuals age 50 and older as having exceeded their IRA contribution limit, the
maximum allowable amount of $5,000 for TYs 2006 and 2007 was used.
                                                                                                            Page 6
                                 A Service-wide Strategy Is Needed to
                      Address Growing Noncompliance With Individual Retirement
                         Account Contribution and Distribution Requirements



               Figure 3: Potential Revenue Loss From Unreported Excise Tax

                                               Number of
                                            Individuals With         Total Excess            6% Excise Tax
                                              Excess IRA                 IRA                 on Excess IRA
                   Tax Year                  Contributions           Contributions           Contributions
       TY 2006                                      151,165            $812,339,722               $48,741,723
       TY 2007                                      143,976            $756,792,044               $45,408,721
       Totals of TYs 2006 and 2007                  295,141          $1,569,131,766             $94,150,444 21
       Average for TYs 2006 and 2007                147,571            $784,565,883               $47,075,222

       Potential Unreported
                                                    737,853          $3,922,829,415             $235,376,110
       Excise Tax Over 5 Years
     Source: TIGTA analysis of TYs 2006 and 2007 Forms 5498.

For TY 2006 and TY 2007, IRA contribution limits were generally the smaller of $4,000
($5,000 if age 50 or older by the end of the year) or taxable compensation. Individuals could
contribute to both traditional and Roth IRAs for the same year; however, the total contributions
could not exceed the maximum limit. For example, an individual age 50 or older could
contribute $3,000 to a Roth IRA and $2,000 to a traditional IRA, or any other combination
provided that the total contribution did not exceed $5,000. Contributions that are in excess of the
limits and not properly withdrawn are subject to a 6 percent excise tax.
In addition, we estimate potential revenue loss of more than $17.5 million in income tax on
unreported interest on the more than $1.5 billion of excess contributions for TY 2006 and
TY 2007. Figure 4 shows the potential revenue loss of income tax on unreported interest over
the next 5 years using a 4 percent interest rate and a 28 percent tax rate. 22




21
   For TY 2006 and TY 2007, the 6 percent excise tax was calculated for each individual, rounded, and totaled.
Because of rounding for each individual, the results will not match the total excess IRA contributions multiplied by
6 percent.
22
   Our estimates use the average of the tax rates that the IRS used in its study of excess IRA contributions for
TY 2006. However, our estimate included both traditional IRA and Roth IRA excess contributions; whereas, the
IRS study included only Roth IRA excess contributions. Our results were based on analyses of IRA contributions
reported on all Forms 5498 submitted to the IRS; whereas, the IRS study only considered IRA contribution data for
taxpayers that were included in the AUR Program.
                                                                                                             Page 7
                                A Service-wide Strategy Is Needed to
                     Address Growing Noncompliance With Individual Retirement
                        Account Contribution and Distribution Requirements



               Figure 4: Potential Revenue Loss From Unreported Interest

                    Tax Year                    4% Interest Income on           Revenue Loss Due to
                                                     Excess IRA                Income Tax Avoidance
                                                    Contributions
       TY 2006                                         $32,493,589                       $9,098,205
       TY 2007                                         $30,271,682                       $8,476,071
       Total for TY 2006 and TY 2007                   $62,765,271                      $17,574,276
       Average for TY 2006 and TY 2007                 $31,382,635                       $8,787,138

       Potential Revenue Loss for
                                                    $169,978,476 23                   $47,593,973 24
       TYs 2008 to 2012
           Source: TIGTA computation of unreported interest and income tax avoidance.

IRS Actions to Date Have Not Reduced Excess Contribution Noncompliance
In our prior review, we recommended that the Commissioner, Wage and Investment Division,
develop and implement strategies to bring noncompliant individuals back into compliance. To
date, no strategies have been developed or implemented to reduce noncompliance. Instead, to
address our recommendations, the IRS initiated studies to identify cases with IRA contributions
in excess of the limits for TY 2006 and TY 2007. The IRS study for TY 2006 found the same
problem that we previously reported; i.e., individuals are making excess contributions resulting
in significant revenue loss. The results of the TY 2007 study of excess IRA contributions are not
yet available. However, the IRS advised us that the TY 2007 results are consistent with the
TY 2006 results.
The IRS limited the cases it reviewed as part of its TY 2006 study to the total population of cases
in AUR Program inventory that, along with other issues, also included an IRA issue. There were
38,761 of these cases. The IRS calculated lost excise tax revenue of approximately $15.4 million
($397 average per case) in excise tax on the excess contributions. Excess contributions for these
38,761 noncompliant cases totaled $256,619,933. The IRS informed us that the $397 average
excise tax per case is below the AUR Program case average. The study also estimated that at
least $29.5 million ($764 average per case) to as much as $109.5 million ($2,836 average per




23
   Unreported interest if compounded annually over 5 years only on the average excess contributions of
$784.5 million for TYs 2006 and 2007.
24
   This is the revenue loss calculated at a 28 percent effective tax rate. Appendix V provides more information on
how TYs 2008 to 2012 amounts were computed.


                                                                                                             Page 8
                               A Service-wide Strategy Is Needed to
                    Address Growing Noncompliance With Individual Retirement
                       Account Contribution and Distribution Requirements



case) 25 of income tax revenue was lost due to unreported interest income on the excess Roth IRA
contributions for one tax year. 26
We determined that the IRS incorrectly calculated the average income tax avoidance per case.
The IRS used the total number of traditional and Roth IRA over-contribution cases to compute
the average. Instead, the IRS should have only used the number of Roth IRA over-contribution
cases to compute the average. This is because withdrawals from Roth IRAs are tax free;
whereas, withdrawals from traditional IRAs are subject to income tax. The IRS agreed an error
had been made. Figure 5 provides the recalculated average income tax avoidance per case.
           Figure 5: Recalculated Average Income Tax Avoidance Estimate
                                                     Minimum (2%)                Maximum (6%)
             Total Income Tax
                                                     $    29,519,294             $   109,526,109
             Avoidance
             Average Income Tax
                                                   $        1,413           $           5,241
             Avoidance per Case
             Source: TIGTA analysis of the IRS AUR Program IRA Over-Contribution study.

Individuals continue to not take required minimum distributions
In our prior review, we identified 471,383 individuals who were required to take minimum
distributions in TY 2005 who did not report any distributions. We reviewed a judgmental
sample of 30 individual accounts and determined that 5 individuals (17 percent) did not take any
or all of their TY 2005 required minimum distributions. We determined that $188,852
(72 percent) of the $261,447 total estimated required minimum distributions for the 5 individuals
was not taken and excise tax of $94,426 were not reported on this income. We did not project
our results because our sample was judgmental.
For our analysis of TY 2006 and TY 2007, we identified 598,239 individuals who did not appear
to have taken their required minimum distributions. We reviewed a statistically valid sample of
96 individuals and estimated that the population contained 255,498 noncompliant individuals
who did not take required minimum distributions totaling more than $348 million. 27 We estimate
the potential excess tax revenue loss of more than $174.2 million for TY 2006 and TY 2007.




25
   The study did not provide the number of cases that was used to compute this average.
26
   The minimum estimate is based on a 2 percent gain on investment and the maximum estimate is based on a
6 percent gain on investment. Both estimates used a 28 percent income tax rate.
27
   See Appendix I for the sampling methodology.
                                                                                                        Page 9
                                A Service-wide Strategy Is Needed to
                     Address Growing Noncompliance With Individual Retirement
                        Account Contribution and Distribution Requirements



The results of our statistically valid sample of 96 individuals are as follows:
     •   41 individuals (43 percent) did not take required minimum distributions. The estimated
         amount of required minimum distributions not taken by these 41 individuals totaled
         $55,921 and the 50 percent excise tax was $27,962.
     •   28 individuals (29 percent) were compliant. For example, we determined that some
         individuals took their required minimum distributions in the calendar year following the
         year in which they reached age 70½. We also determined that some deceased
         individuals’ required minimum distribution were taken by the surviving spouses.
     •   15 individuals (16 percent) were either deceased and beneficiary information was not
         available to assess compliance for inherited IRAs or information was not available 28 for
         us to determine compliance. The instructions for Form 5498 indicate that custodians
         must include the decedent’s name on a Form 5498 issued to a nonspouse beneficiary, for
         example, “Brian Willow as beneficiary of Joan Maple.” However, the Forms 5498 issued
         to the deceased individuals are not required to, and did not include, any beneficiary
         information. Without a beneficiary name or Taxpayer Identification Number (TIN), we
         cannot research tax information to determine if the beneficiary took a required minimum
         distribution for an inherited IRA. The instructions for Form 1099-R indicate that
         distributions to a beneficiary must include the beneficiary’s name and TIN, not the
         decedent’s name and TIN. In a related matter, the Information Reporting Program
         Advisory Committee’s 29 2009 report recommended the IRS provide guidance and/or
         instructions to address Form 5498 reporting with respect to a successor beneficiary of a
         deceased IRA beneficiary. The report further indicated that the IRS is not ready to
         provide such guidance or instructions, but will study the background and
         recommendation and add the issue to its current priority guidance list.
     •   12 individuals (12 percent) had erroneous information reported by custodians.
Yearly minimum distributions from traditional IRA accounts are required when an individual
reaches age 70½. These distributions are generally taxed as ordinary income on the individual’s
tax return. Roth IRA accounts are not subject to the required minimum distribution rules. IRA
custodians must identify on Form 5498 if an individual is subject to a minimum distribution for


28
   For example, we could not determine if one individual took a required minimum distribution for TY 2007 because
the fair market value of the IRA was not reported. The fair market value is needed to compute the required
minimum distribution.
29
   The Information Reporting Program Advisory Committee, which was established in 1991, serves as an advisory
body to the IRS Commissioner. The Committee provides a public forum for discussion of information reporting
issues of mutual concern between IRS officials and representatives of the public. Committee members research;
analyze; provide recommendations regarding specific information reporting issues, current or proposed IRS
information reporting policies, programs, and procedures; and suggest improvement to information reporting
operations and/or administration of the Information Reporting Program through a final report.
                                                                                                        Page 10
                                A Service-wide Strategy Is Needed to
                     Address Growing Noncompliance With Individual Retirement
                        Account Contribution and Distribution Requirements



the next year by checking Box 11. Any portion of the required minimum distribution not taken
by an individual may be subject to a 50 percent excise tax which is reported on the tax return. 30
IRS Actions to Date Have Not Reduced Noncompliance With Required Minimum Distribution
Rules
In our prior review, we recommended the IRS consider using the indicator shown on Form 5498,
Box 11 (see Appendix VI), to identify individuals who were subject to required minimum
distributions. This data could be compiled into a file that could be used later to compare against
the tax returns processed during the subsequent filing season 31 to determine whether individuals
were in compliance with the required minimum distribution rules. In addition, we recommended
that the IRS consider requiring custodians to report estimated required minimum distribution
amounts on Form 5498 in the blank box to the left of Box 10. This data could then be combined
with the indicator from Box 11 and used as part of the AUR Program to prioritize noncompliant
individuals who fail to report their required minimum distributions.
The IRS agreed with both of these recommendations and requested that data from Box 11 be
included in its study of TY 2007 required minimum distributions. The results of the study will
dictate what actions, if any, the IRS will take related to the Form 5498, Box 11 data. In addition,
the IRS is including information from Form 5498 in the design of its data collection instrument
for the National Research Program (NRP) study of TY 2007 individual returns. Information
produced by this study should be available for analysis beginning in late 2010. To date, the IRS
has not required custodians to report estimated the required minimum distribution amount on
Form 5498.
When the IRS issued the regulations for required minimum distributions in 2002, it expressed
concerns about the overall level of compliance in this area. The IRS indicated that it intended to
monitor the effect of the reporting requirements for minimum distributions on compliance to
determine whether it would be appropriate to modify the process in the future. 32
Apart from the four studies the IRS initiated, the IRS Employee Plans Compliance Unit 33
conducted a project to identify individuals with IRA account balances of $1 million or more who
did not appear to have taken their required minimum distributions. The study identified

30
   In some instances, taxpayers may be able to waive the penalty due to reasonable cause.
31
   The period from January through mid-April when most individual income tax returns are filed.
32
   Notice 2002-27, Reporting Required Minimum Distributions From IRAs, 2002-18 I.R.B. (May 6, 2002) and
T.D. 8987, Required Distributions from Retirement Plans, 2002-19 I.R.B. (May 13, 2002).
33
   The Employee Plans function is organized under the IRS Tax Exempt and Government Entities Division. The
Employee Plans function helps retirement plan sponsors, plan participants, and practitioners working in the
retirement benefits arena understand and comply with the pension law. The Employee Plans Compliance Unit
focuses on compliance projects, performs data analysis, and increases its presence through “soft contacts” and
compliance checks. The IRS mails soft contacts (i.e., notices) to potentially noncompliant taxpayers to inform them
of what information the IRS has and to request they review their records and take appropriate action to remedy the
condition.
                                                                                                          Page 11
                               A Service-wide Strategy Is Needed to
                    Address Growing Noncompliance With Individual Retirement
                       Account Contribution and Distribution Requirements



111 individuals. The Unit sent these 111 individuals a
compliance letter requesting that they take their required
minimum distributions. As of December 31, 2009,                         Attorneys and accountants
88 (79 percent) of the individuals have taken their                  commented that the IRS’ project
                                                                           to identify individuals
required minimum distributions totaling $6.1 million.                  noncompliant with required
The Unit is continuing to work with the remaining                       minimum distributions has
23 (21 percent) individuals to ensure they take their                 created an IRS presence in an
required minimum distributions totaling $2.4 million                   area where one was needed.
during Fiscal Year 2010.
The 88 individuals’ reasons for failing to take their required minimum distribution appeared to
meet the “reasonable error” standard (such as illness or a major life event) for a waiver of the
excise tax. The only remaining standard for a waiver requires that the individual takes
reasonable steps to remedy the shortfall. As of December 31, 2009, no excise tax has been
assessed since 79 percent of the individuals appear to be eligible for a waiver and the Employee
Plan Compliance Unit is still working with the remaining 21 percent of individuals to secure
their required minimum distributions. Any individual who fails to take their required minimum
distribution could be referred to the IRS Wage and Investment Division for appropriate future
action, including assessment and collection of the excise tax. The IRS also informed us that a
number of attorneys and certified public accountants have commented that this project has
created an IRS presence in an area where one was needed.

A Service-wide strategy is the key to reducing IRA noncompliance
The IRS should develop a Service-wide strategy to address growing IRA noncompliance. Of
particular concern is the lack of functional ownership within the IRS for addressing IRA
noncompliance. Our discussions with IRS management in the AUR Program and the
Examination function found that IRA noncompliance is largely overlooked in these functions
because workload is based on the tax effect of an individual tax return rather than the total
amount of revenue lost due to IRA noncompliance.
Based on our analyses of IRA contributions and required minimum distributions, noncompliance
will likely continue to grow and continue to result in significant revenue loss. By 2030, the
number of people aged 65 and over is expected to double to about 20 percent of the population,
or more than 71 million people. The number of people aged 85 and older will be the fastest
growing segment of the U.S. population. 34 Incomes increasingly transition from wages to
investment and retirement benefits as individuals reach retirement age.
The IRS has developed Service-wide strategies to address other issues that significantly affect
tax administration, such as the Earned Income Tax Credit and identity theft. To better

34
  U.S. Census Bureau, Population Division, Population Projections Branch from The Wage and Investment Strategy
and Program Plan FY 2007–FY 2008.
                                                                                                     Page 12
                            A Service-wide Strategy Is Needed to
                 Address Growing Noncompliance With Individual Retirement
                    Account Contribution and Distribution Requirements



understand the issues, the IRS formed Program Offices to develop policy and procedures in an
attempt to consistently manage the issues.

Recommendation
Recommendation 1: The Deputy Commissioner for Services and Enforcement should ensure
a Service-wide strategy is developed to address retirement provision noncompliance. This
strategy should include the development of processes to identify individuals who do not comply
with retirement provisions along with compliance efforts to address the noncompliance.
       Management’s Response: IRS management agreed with this recommendation.
       Wage and Investment and Tax Exempt and Government Entities Divisions agreed to
       work together to develop a long-term strategy to reduce retirement provision
       noncompliance. The Wage and Investment Division Compliance Office will also reach
       out to other IRS stakeholders for support as this strategy will contain compliance,
       education/guidance, and outreach components.




                                                                                       Page 13
                                A Service-wide Strategy Is Needed to
                     Address Growing Noncompliance With Individual Retirement
                        Account Contribution and Distribution Requirements



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective was to assess IRS actions to identify and correct individual excess
contributions to IRAs and nondisbursements of required minimum distributions from IRAs. To
accomplish our objective, we:
I.       Evaluated actions the IRS has taken to address prior audit report 1 findings on excess IRA
         contributions and required minimum distributions.
         A. Obtained and reviewed the Joint Audit Management Enterprise System Corrective
            Action Forms to determine the status of planned corrective actions associated with the
            TIGTA prior review of IRAs.
         B. Obtained and reviewed audit findings pertaining to traditional and Roth IRAs
            reported by the Government Accountability Office.
         C. Reviewed IRS publications and forms, Information Returns Master File 2
            documentation, and other pertinent documents for information regarding excess IRA
            contributions and required minimum distributions.
         D. Determined if IRS information being collected as part of the current IRS NRP study
            will address the findings in prior TIGTA and Government Accountability Office
            reports.
                  1. Contacted NRP officials to determine the status of the NRP study and identify
                     what IRA information is being collected and how it will be used in the study.
                  2. Obtained IRA data from 5,452 closed NRP cases. We sorted the data and
                     found incomplete or inconsistent information.
         E. Obtained and reviewed the IRS AUR Program office’s study of excess traditional or
            Roth IRA contributions for TY 2006.




1
  Individual Retirement Account Contributions and Distributions Are Not Adequately Monitored to Ensure Tax
Compliance (Reference Number 2008-40-087, dated March 28, 2008); INDIVIDUAL RETIREMENT ACCOUNTS,
IRS Enforces Some but Not All Key Rules, and Opportunities Exist to Strengthen Taxpayer Compliance (GAO-07-
1059SU, dated September 2007); and INDIVIDUAL RETIREMENT ACCOUNTS, Additional IRS Actions Could
Help Taxpayers Facing Challenges in Complying with Key Tax Rules (GAO-08-654, dated August 2008).
2
  The Information Returns Master File contains tax information reported from third parties for the current and prior
5 tax years.
                                                                                                            Page 14
                                A Service-wide Strategy Is Needed to
                     Address Growing Noncompliance With Individual Retirement
                        Account Contribution and Distribution Requirements



II.     Performed computer analyses on IRA Contribution Information (Form 5498) data and
        Distributions From Pensions, Annuities, Retirement or Profit-Sharing Plans, IRAs,
        Insurance Contracts, etc. (Form 1099-R) data for TY 2006 and TY 2007 to identify
        individuals with traditional or Roth IRA contributions in excess of the maximum annual
        limit of $5,000. 3 See Appendix V for a detailed explanation of our audit methodology.
III.    Identified individuals who did not take their required minimum distributions for TY 2006
        and TY 2007. Specifically, we:
        A. Performed computer analysis to identify all TY 2005 Forms 5498 with a check in
           Box 11, which indicated a required minimum distribution was required for TY 2006.
           We captured the payee (individual) TIN reported on these Forms 5498 and matched
           them against the payee TINs reported on the TY 2006 Forms 1099-R. We identified
           284,723 individuals that were required to take a required minimum distribution for
           TY 2006, but did not have a TY 2006 Form 1099-R distribution.
        B. Performed computer analysis to identify all TY 2006 Forms 5498 with a check in
           Box 11, which indicated a required minimum distribution for TY 2007. We captured
           the payee TIN reported on these Forms 5498 and matched them against the payee
           TINs reported on the TY 2007 Forms 1099-R. We identified 313,516 individuals that
           were required to take a required minimum distribution for TY 2007, but did not have
           a TY 2007 Form 1099-R distribution.
        C. Reviewed a statistical sample of 96 individuals that were randomly selected from
           both tax years. We performed additional research of the individuals’ data stored on
           the IRS Integrated Data Retrieval System 4 to determine if a minimum distribution
           was required and taken. Our sampling criteria included:
             Population = 598,2391
             Confidence Level = 95 percent
             Desired Precision = ± 7.5 percent2
             Estimated Error Rate = 17 percent3
             Sample Size = 962




3
  IRA contributions are limited to $4,000 per year ($5,000 if age 50 or older) for TY 2006 and TY 2007. To avoid
erroneously identifying individuals age 50 or older as having exceeded their IRA contribution limit, we used the
maximum limit of $5,000 in our analysis.
4
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                         Page 15
                             A Service-wide Strategy Is Needed to
                  Address Growing Noncompliance With Individual Retirement
                     Account Contribution and Distribution Requirements


           1=
              Sum of 284,723 for TY 2006 plus 313,516 for TY 2007.
           2=
              Various precisions and sample sizes were considered, but our final selection was
               based on available audit resources.
           3=
              This was the actual error rate observed in our prior review of IRAs.
       D. Projected the results of the statistical sample to the population.
IV.    Evaluated the reliability of IRS computer-processed data by performing run-to-run
       balancing and counts on the data to ensure all records were accounted for, verifying the
       Form 5498 and Form 1099-R data against the IRS Information Return Master File, and
       researching other individual data stored on the IRS Integrated Data Retrieval System.
       We concluded that the computer-processed data were sufficiently reliable to support the
       audit finding, conclusion, and recommendation.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Wage and Investment Division’s
policies, procedures, and practices for processing Forms 5498 and 1099-R and, more
specifically, the traditional and Roth IRA reporting requirements. We evaluated these controls
by interviewing management and analyzing traditional and Roth IRA data reported on the
Forms 5498 and 1099-R.




                                                                                         Page 16
                            A Service-wide Strategy Is Needed to
                 Address Growing Noncompliance With Individual Retirement
                    Account Contribution and Distribution Requirements



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Tina M. Parmer, Audit Manager
Sharon A. Buford, Lead Auditor
Van A. Warmke, Senior Auditor
Kim I. McMenamin, Auditor
Richard Hilleson, Information Technology Specialist




                                                                                    Page 17
                           A Service-wide Strategy Is Needed to
                Address Growing Noncompliance With Individual Retirement
                   Account Contribution and Distribution Requirements



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                               Page 18
                                A Service-wide Strategy Is Needed to
                     Address Growing Noncompliance With Individual Retirement
                        Account Contribution and Distribution Requirements



                                                                                                 Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $202,333,250 in excise tax over 5 years due to
    295,141 individuals not reporting more than $3.9 billion of excess contributions to IRAs
    (see page 5).

Methodology Used to Measure the Reported Benefit:
We performed an analysis of traditional and Roth IRA contributions for TY 2006 and TY 2007
and identified a total of 295,141 individuals who exceeded the annual maximum IRA
contribution limit of $5,000 1 and did not report excise tax on these excess contributions.
These 295,141 individuals had excess contributions 2 totaling $1,569,131,766. 3 The unreported
6 percent excise tax on each individual’s excess contributions totaled $94,150,444. 4
We believe these individuals could continue to make the same excess contributions in
subsequent years, and that over 5 years, $202,333,250 in potential excise tax revenue would not
be collected. This amount was calculated by computing the average excise tax amount for both
years of $47,075,222, multiplying the average by 5 years, then reducing the result by
$33,042,860. Our prior report 5 included the $33,042,860 as an outcome measure for potential
unreported excise tax for TY 2006 through TY 2010. In this report, we computed the outcome


1
  IRA contributions are limited to $4,000 per year ($5,000 if age 50 or older) for TY 2006 and TY 2007. To avoid
erroneously identifying individuals age 50 or older as having exceeded their IRA contribution limit, we used the
maximum limit of $5,000 in our analysis.
2
  Contributions greater than the $5,000 maximum contribution limit for TY 2006 and TY 2007 are defined as
“excess” IRA contributions.
3
  This amount was averaged for both TY 2006 and TY 2007 totaling $784,565,883. This amount over 5 years
equals $3,922,829,415.
4
  For TY 2006 and TY 2007, the 6 percent excise tax was calculated for each individual, rounded, and totaled.
Because of rounding for each individual, the results will not match the total excess IRA contributions multiplied by
6 percent.
5
  Individual Retirement Account Contributions and Distributions Are Not Adequately Monitored to Ensure Tax
Compliance (Reference Number 2008-40-087, dated March 28, 2008).
                                                                                                            Page 19
                                   A Service-wide Strategy Is Needed to
                        Address Growing Noncompliance With Individual Retirement
                           Account Contribution and Distribution Requirements



measure for potential unreported excise tax for TY 2008 through TY 2012. We reduced our
current outcome measure by the $33,042,860 to prevent overstating the amount.

Type and Value of Outcome Measure:
•      Increased Revenue – Potential; $28,539,960 in income tax over 5 years on an estimated
       cumulative amount of $169,978,476 in unreported interest on excess contributions to IRAs
       (see page 5).

Methodology Used to Measure the Reported Benefit:
In addition to the $94,150,444 loss in excise tax for TY 2006 and TY 2007, there is a potential
future compound interest effect as it relates to revenue loss from unreported interest on excess
contributions over the next 5 years.
We calculated estimated unreported interest of $62,765,271 on the excess contributions of
$1,569,131,766 identified for TY 2006 and TY 2007 using an interest rate of 4 percent. We
divided the $62,765,271 by 2 to get an average of $31,382,635 for each tax year. We computed
compound interest on the $31,382,635 over 5 years for a total of $169,978,476.
We calculated estimated unreported income tax of $47,593,973 on the estimated unreported
interest of $169,978,476 using a 28 percent tax rate. 6 We reduced the $47,593,973 by
$19,054,013. The difference was $28,539,960 in potential income tax that could be unreported
over the next 5 years. Our prior report included the $19,054,013 7 of unreported income tax as an
outcome measure for TY 2006 through TY 2010. In this report, we computed the outcome
measure for TY 2008 through TY 2012. We reduced our current outcome measure by the
$19,054,013 to prevent overstating the amount.

Type and Value of Outcome Measure:
•      Increased Revenue – Potential; $174,249,074 in excise tax for required minimum
       distributions that were not taken by 255,498 individuals from their IRAs (see page 5).

Methodology Used to Measure the Reported Benefit:
We identified 598,239 individuals who did not appear to have taken their required minimum
distributions for TYs 2006 and 2007 and reviewed a statistically valid sample of 96 individuals.
Our preliminary results identified 41 individuals (43 percent) who appeared to be noncompliant.
For each of the 41 individuals, we computed the amount of required minimum distribution not
taken by dividing the sum of the IRA account balances by the individual’s applicable life
expectancy rate and reducing the result by distributions, if any, that were taken from the IRA

6
    We used the same tax rate of 28 percent that the IRS used in its study of TY 2006 IRA contributions.
7
    In our prior report, we used a 15 percent tax rate to compute the $19,054,013 of unreported income tax.
                                                                                                              Page 20
                            A Service-wide Strategy Is Needed to
                 Address Growing Noncompliance With Individual Retirement
                    Account Contribution and Distribution Requirements



accounts. The estimated amount of required minimum distributions not taken by these
41 individuals totaled $55,921 and the 50 percent excise tax was $27,962.
Based on the statistical sample results, we estimate the population contains
255,498 noncompliant individuals who did not take required minimum distributions totaling
$348,480,200. We are 95 percent confident that the number of noncompliant individuals in the
population is between 195,996 and 315,000 (the margin of error is ± 59,502). In addition, we are
95 percent confident that the amount of required minimum distributions not taken is between
$172,597,789 and $524,362,611 (the margin of error is ± $175,882,411), and the estimated
amount of 50 percent excise tax is between $86,301,885 and $262,196,263 (the margin of error
is ± $87,947,189).




                                                                                        Page 21
                               A Service-wide Strategy Is Needed to
                    Address Growing Noncompliance With Individual Retirement
                       Account Contribution and Distribution Requirements



                                                                                            Appendix V

    Methodology to Compute Estimated Revenue Loss
       Associated With Excess IRA Contributions

This appendix details TIGTA’s data analysis methodology used to identify individuals making
excess IRA contributions for TY 2006 and TY 2007. This analysis was further refined from our
prior review 1 to better identify the underreported excise tax. Our refined analysis is similar to
the concept of the IRS AUR Program, which uses third-party reporting documents to identify
potentially noncompliant individuals.

TIGTA Methodology for Tax Years 2006 and 2007
The following information describes how we identified the 151,165 individuals with
$812.3 million in excess contributions above the maximum limit of $5,000 for age 50 or older
for TY 2006 and the 143,976 individuals with $756.8 million in excess contributions above the
$5,000 maximum limit for TY 2007. Combined, we identified 295,141 individuals with over
$1.5 billion in excess contributions above the $5,000 maximum limit. The $1.5 billion equates
to an IRS revenue loss of more than $202.3 million in additional unreported excise tax that we
previously reported would not be collected over 5 years. Specifically, we:
•   Identified 220,572,392 IRA Contribution Information (Form 5498) returns filed with the IRS
    for TY 2006 and TY 2007. We used IRS data files to identify these Forms 5498.
•   Eliminated from the population of 220,572,392 the following Forms 5498:
    •   12,028 Forms 5498 reporting a payee (individual) TINs with all zeros (i.e., 000-00-0000)
        or reporting both traditional and Roth IRA contributions. These were eliminated because
        they are reporting errors.
    •   190,866,746 Forms 5498 that did not report a traditional or Roth IRA contribution.
        Forms 5498 are used to report other IRA transactions, for example, roll over
        contributions, recharacterized contributions, etc.
    •   89,696 Forms 5498 containing a case duplicate/amended indicator of
        ‘D’ (duplicate), ‘G’ (amended), or ‘R’ (original replaced by amended). These Forms
        5498 were replaced by other Forms 5498 so they were eliminated to prevent double
        counting.


1
 Individual Retirement Account Contributions and Distributions Are Not Adequately Monitored to Ensure Tax
Compliance (Reference Number 2008-40-087, dated March 28, 2008).
                                                                                                     Page 22
                               A Service-wide Strategy Is Needed to
                    Address Growing Noncompliance With Individual Retirement
                       Account Contribution and Distribution Requirements



•   Analyzed the remaining 29,603,922 2 Forms 5498 that reported a traditional or Roth IRA
    contribution. These Forms 5498 had a case duplicate/amended indicator of ‘F’ (original),
    ‘C’ (corrected), or ‘O’ (amended replacing original).
We analyzed the remaining 29,603,922 Forms 5498 as described below:
•   Identified 23,893,260 payee TINs (individuals) associated with the 29,603,922 Forms 5498.
    An individual can have several Forms 5498, for example, one for a traditional IRA account
    and another for a Roth IRA account. We counted each individual only once in our computer
    analysis.
•   Identified individuals having the following conditions:
    o 1 or more Forms 5498 reporting a traditional IRA contribution greater than $5,000.
    o 1 or more Forms 5498 reporting a Roth IRA contribution greater than $5,000.
    o 1 or more Forms 5498 reporting traditional IRA contributions totaling $5,000 or less, and
      1 or more Forms 5498 reporting Roth IRA contributions totaling $5,000 or less, but the
      combined IRA contributions totaled more than $5,000.
•   Eliminated individuals’ IRA contributions that appeared to be roll overs by matching the
    Form 5498 IRA contribution amount to a gross distribution amount reported on Distributions
    From Pensions, Annuities, Retirement or Profit-Sharing Plans, IRAs, Insurance Contracts,
    etc. (Form 1099-R) for the same tax year. For the amounts that matched, we assumed the
    custodian made an error by reporting an IRA roll over as an IRA contribution.
•   Reduced individuals’ IRA contributions that were withdrawn by matching the IRA account
    number on the Form 5498 to the same IRA account number on a Form 1099-R for the same
    year and subtracting the gross distribution amount from the IRA contribution amount.
•   Computed the amount of excess IRA contribution, 3 if any, for each individual by calculating
    the difference between the total IRA contributions reported on their Forms 5498 minus
    misreported roll overs, IRA contributions that were withdrawn, and the $5,000 maximum
    limit. We also computed the 6 percent excise tax on the excess contributions for each
    individual. The results for TY 2006 and TY 2007 are shown below.




2
 We computed this number as 220,572,392 - 12,028 - 190,866,746 - 89,696 = 29,603,922.
3
 IRA contributions greater than the maximum limit of $5,000 for TY 2006 and TY 2007 are defined as “excess”
IRA contributions. To avoid erroneously identifying individuals age 50 or older as having exceeded their IRA
contribution limit, we used the maximum limit of $5,000 in our analysis.
                                                                                                      Page 23
                                A Service-wide Strategy Is Needed to
                     Address Growing Noncompliance With Individual Retirement
                        Account Contribution and Distribution Requirements



         Individuals With Excess
                                                 TY 2006                  TY 2007                Combined
           IRA Contributions
     Number of Individuals                              159,283                 152,162                  311,445
     Total Excess Contributions                  $893,984,152             $873,750,890          $1,767,735,042
     Total 6% Excise Tax 4                         $53,640,493             $52,426,358            $106,066,851

    •    Eliminated individuals that reported an amount on line 60 of U.S. Individual Income Tax
         Return (Form 1040) (used to report excise tax) for the same tax year they were identified
         as having excess IRA contributions. This elimination was very conservative since line 60
         is used to report other excise tax. 5

        Elimination of Individuals
        Reporting an Amount on                   TY 2006                  TY 2007                Combined
           Form 1040, Line 60
     Number of Individuals                                 8,114                   8,180                  16,294
     Total Excess Contributions                    $40,489,862             $39,628,346             $80,118,208
     Total 6% Excise Tax                            $2,429,496               $2,377,807              $4,807,303

    We conducted further analysis of the TY 2006 Forms 5498 and determined that 46,455
    (31 percent) of the 151,169 individuals (159,283 minus 8,114) had only 1 Form 5498 with
    excess IRA contributions totaling $511,551,922 and estimated 6 percent excise tax of
    $30,693,366. The remaining 104,714 (69 percent) individuals had 2 or more Forms 5498
    with excess IRA contributions totaling $341,942,368 and estimated 6 percent excise tax of
    $20,517,631.
    Further analysis of the TY 2007 Forms 5498 showed that 48,325 (34 percent) of the
    143,982 individuals (152,162 minus 8,180) had only 1 Form 5498 with excess IRA
    contributions totaling $532,550,416 and estimated 6 percent excise tax of $31,953,185. The



4
  The excise tax amounts in the table will not equal the excess contributions multiplied by 6 percent because we
multiplied each individual’s excess IRA contributions by 6 percent, rounded the result to the nearest dollar, and
totaled the amounts. This explanation applies to all 6 percent excise tax amounts included in Appendix V.
5
  An amount reported on Form 1040, line 60, is supported by attaching Additional Taxes on Qualified Plans
(Including IRAs) and Other Tax-Favored Accounts (Form 5329). Form 5329 includes additional taxes on early
distributions; certain distributions from education accounts, excess accumulation in qualified retirement plans,
including IRAs; and excess contributions to traditional IRAs, Roth IRAs, Coverdell education savings accounts,
Archer medical savings account, or health savings accounts. Data were only available for the amount reported on
Form 1040, line 60. Data were not available for amounts reported on Form 5329.
                                                                                                          Page 24
                                A Service-wide Strategy Is Needed to
                     Address Growing Noncompliance With Individual Retirement
                        Account Contribution and Distribution Requirements



    remaining 95,657 (66 percent) individuals had 2 or more Forms 5498 with excess IRA
    contributions totaling $301,572,128 and estimated 6 percent excise tax of $18,095,366.
•   Sorted the list of individuals in descending order beginning with the largest amount of excess
    IRA contribution to the smallest amount. We selected the top 10 individuals for each tax
    year, researched the individuals’ IRA information on the Information Returns Master File, 6
    and adjusted our data analysis results as needed. 7 An example of an adjustment is where the
    sum of several type ‘G’ (direct roll over to an IRA) distributions of differing amounts equals
    an amount reported as an IRA contribution. We could not perform this type of analysis of
    the Form 5498 IRA contributions and Form 1099-R distributions data using the computer.
    (Note: In its study of excess IRA contributions for TY 2006, the IRS excluded 1 case with
    an excess traditional IRA contribution of $247,316,000. The case was considered a data
    anomaly.)

       Elimination of Individuals
          Based on Additional
                                                  TY 2006                 TY 2007                 Combined
        Research of Forms 5498
           and Forms 1099-R
     Number of Individuals                                       4                       6                      10
     Total Excess Contributions                    $41,154,568              $77,330,500            $118,485,068
     Total 6% Excise Tax                             $2,469,274              $4,639,830               $7,109,104

•   Summarized the results of the above analyses is shown on the following page:




6
  The Information Returns Master File contains tax information reported from third parties for the current and prior
5 tax years.
7
  We limited our review to the top 10 individuals with the greatest amount of excess contributions for each tax year.
There may be other individuals with excess IRA contributions that could be adjusted. However, we did not have the
resources to research Information Returns Master File data for each individual with excess IRA contributions.
                                                                                                           Page 25
                         A Service-wide Strategy Is Needed to
              Address Growing Noncompliance With Individual Retirement
                 Account Contribution and Distribution Requirements



                                          Number of         Total Excess       Total 6%
                                          Individuals       Contributions      Excise Tax
               TY 2006
 Computer Analysis of Forms 5498               159,283        $893,984,152      $53,640,493
 Less: Results of Form 1040, Line 60,
                                                 8,114         $40,489,862       $2,429,496
 Match
 Less: Results From Additional
 Research of the Information Returns                    4      $41,154,568       $2,469,274
 Master File
 Final Results for TY 2006                     151,165        $812,339,722      $48,741,723
               TY 2007
 Computer Analysis of Forms 5498               152,162        $873,750,890      $52,426,358
 Less: Results of Form 1040, Line 60,
                                                 8,180         $39,628,346       $2,377,807
 Match
 Less: Results From Additional
 Research of the Information Returns                    6      $77,330,500       $4,639,830
 Master File
 Final Results for TY 2007                     143,976        $756,792,044      $45,408,721
              Combined
 Computer Analysis of Forms 5498               311,445      $1,767,735,042     $106,066,851
 Less: Results of Form 1040, Line 60,
                                                16,294         $80,118,208       $4,807,303
 Match
 Less: Results From Additional
 Research of the Information Returns                10        $118,485,068       $7,109,104
 Master File
 Final Results for Both Tax Years              295,141      $1,569,131,766      $94,150,444

The final results showed that 295,141 individuals made excess contributions totaling more
than $1.5 billion for TYs 2006 and 2007. The total estimated excise tax on the excess
contributions was more than $94 million (average of $319 per individual).




                                                                                    Page 26
                             A Service-wide Strategy Is Needed to
                  Address Growing Noncompliance With Individual Retirement
                     Account Contribution and Distribution Requirements



Six Percent Excise Tax on Excess IRA Contributions
•   Computed 6 percent excise tax of $94,150,444 on excess IRA contributions for TY 2006 and
    TY 2007. We calculated this amount by multiplying each of the 295,141 individuals’ excess
    IRA contributions by 6 percent, rounding each result to the nearest dollar, then totaling the
    amounts for all 295,141 individuals. Because we rounded for each individual, the
    $94,150,444 total excise tax for both years will not equal the total excess IRA contributions
    of $1,569,131,766 multiplied by 6 percent.
Income Tax Avoidance on Estimated Unreported Interest Income on Excess IRA Contributions
•   Calculated average excess IRA contributions of $784,565,883 for TY 2006 and TY 2007 by
    dividing $1,569,131,766 by 2.
•   Calculated $169,978,476 of estimated unreported compound interest over 5 years using a
    4 percent interest rate on the $784,565,883 average excess IRA contributions.
•   Calculated $47,593,973 of potential income tax over 5 years by multiplying the
    $169,978,476 by a 28 percent income tax rate.
•   From the $169,978,476, we subtracted $127,026,756, which we previously reported as
    unreported interest on excess contributions over 5 years using a 7 percent interest rate. The
    difference is $42,951,720, which is our revised estimate of potential unreported interest
    income over 5 years.
•   From the $47,593,973, we subtracted $19,054,013, which we previously reported as potential
    tax on unreported interest over 5 years using a 15 percent tax rate. The difference is
    $28,539,960, which is our revised estimate of potential income tax on unreported interest
    income on excess IRA contributions over 5 years.




                                                                                           Page 27
                             A Service-wide Strategy Is Needed to
                  Address Growing Noncompliance With Individual Retirement
                     Account Contribution and Distribution Requirements



                                                                              Appendix VI

           IRA Contribution Information (Form 5498)

Figure 1 shows Copy A of a blank IRA Contribution Information (Form 5498) for TY 2007.
Copy A is filed with the IRS. Not shown are Copy B, which is provided to the IRA owner, and
Copy C, which is kept by the IRA custodian who prepared the Form 5498.
                                   Figure 1: Form 5498




Source: TY 2007 Form 5498.

Traditional IRA – Box 1 shows traditional IRA contributions for 2007 that are made in 2007 and
through April 15, 2008. “IRA” may be checked in Box 7.
Roth IRA – Box 10 shows Roth IRA contributions for 2007 that are made in 2007 and through
April 15, 2008. “Roth IRA” may be checked in Box 7.
Required Minimum Distribution – If Box 11 is checked, the individual must take a required
minimum distribution for the next tax year. The custodian may include the required minimum
distribution amount in the blank box to the left of Box 10 or furnish the individual with a
calculation of the amount if requested by the individual.




                                                                                       Page 28
                             A Service-wide Strategy Is Needed to
                  Address Growing Noncompliance With Individual Retirement
                     Account Contribution and Distribution Requirements



                                                                               Appendix VII

        Distributions From Pensions, Annuities,
  Retirement or Profit-Sharing Plans, IRAs, Insurance
             Contracts, etc. (Form 1099-R)

Figure 1 shows Copy A of a blank Distributions From Pensions, Annuities, Retirement or
Profit-Sharing Plans, IRAs, Insurance Contracts, etc. (Form 1099-R) for TY 2007. Copy A is
filed with the IRS. Not shown are Copies 1 and 2, which are provided to be filed with a State,
city, or local income tax return; Copies B and C, which are provided to the IRA owner; and
Copy D, which is kept by the IRA custodian who prepared the Form 1099-R.
                                   Figure 1: Form 1099-R




Source: TY 2007 Form 1099-R.



                                                                                         Page 29
                             A Service-wide Strategy Is Needed to
                  Address Growing Noncompliance With Individual Retirement
                     Account Contribution and Distribution Requirements



Required Minimum Distributions from Traditional IRA – The IRA custodian must report a
traditional IRA distribution in Box 1. Generally, the custodian is not required to compute the
taxable amount of a distribution from a traditional IRA. If the custodian does not have all facts
needed to compute the taxable amount, Box 2a should be blank and Box 2b should be checked
indicating the taxable amount was not determined. The custodian should also check the
“IRA/ SEP/SIMPLE” box and enter the appropriate distribution code in Box 7. A Guide to
Distribution Codes is included in the IRS’ TY 2007 instructions for Forms 1099-R and 5498.




                                                                                           Page 30
               A Service-wide Strategy Is Needed to
    Address Growing Noncompliance With Individual Retirement
       Account Contribution and Distribution Requirements




                                                 Appendix VIII

Management’s Response to the Draft Report




                                                        Page 31
           A Service-wide Strategy Is Needed to
Address Growing Noncompliance With Individual Retirement
   Account Contribution and Distribution Requirements




                                                    Page 32
